U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                       U.S. CENSUS BUREAU

                  Improvements Needed in the
           Reporting of Performance Measures
                   By the U.S. Census Bureau


    Final Audit Report No. FSD-15990-4-0001/March 2004




                              PUBLIC
                              RELEASE



     Office of Audits, Financial Statements Audits Division

U. S. Department of Commerce                                        Final Report No. FSD-15990-4-0001

Office of Inspector General                                                               March 2004


                                         INTRODUCTION

The U.S. Census Bureau, the largest statistical agency of the federal government,
conducts large-scale surveys and censuses to gather and disseminate complex United
States population and economic data that, among other things, influences local, state, and
federal policy making; affects how billions of federal dollars are distributed and
congressional seats apportioned; and impacts business planning and investment.

The Department of Commerce relies on Census activities to support its mission. In the
Department’s annual Performance and Accountability Reports, prepared to document
compliance with the Government Performance and Results Act of 1993 (GPRA), 1
Census programs and activities are used to support Commerce’s strategic goal of
providing “the information and the framework to enable the economy to operate
efficiently and equitably,”2 as well as the bureau’s attainment of its own performance
goals. The focus of our audit was on the measures Census used to evaluate and report on
its performance in the Department’s FY 2002 PAR, specifically with regard to the
bureau’s procedures for collecting, verifying, and presenting the associa ted performance
information.

Census generates performance results to enable Congress, the Office of Management and
Budget, and other decision makers to evaluate the federal government’s investment in its
programs, and to help agency officials improve the outcomes of those programs.
However, performance results support these objectives only to the extent that the data is
reliable, and GPRA therefore requires agencies to verify and validate performance data to
ensure its reliability. The General Accounting Office (GAO) has defined verification as
the “assessment of data completeness, accuracy, consistency, timeliness, and the related
quality control practices.” It defines validation as the “assessment of whether data are
appropriate for the performance measure.”3

For FY 2002, Census maintained three goals and seven measures (table 1) with which to
assess and report on program and financial performance. In the FY 2002 PAR, it reported
meeting them all.

                     OBJECTIVES, SCOPE, AND METHODOLOGY

Our purpose was to (1) assess the collection and reporting of Census performance
information submitted to meet GPRA requirements, and (2) determine whether Census’s
internal controls are sufficient to ensure that performance data is accurate, consistent, and
reliable. We reviewed background documentation, and pertinent federal guidance and


1
 GPRA seeks to improve the effectiveness, efficiency, and accountability of federal programs by requiring
agencies to set performance goals against which to annually compare and report on actual performance.
2
  The Department’s two other strategic goals are “Provide infrastructure for innovation to enhance
American competitiveness” and “Observe and manage the Earth’s environment to promote sustainable
growth.
3
  U.S. General Accounting Office, July 30, 1999. Performance Plans: Selected Approaches for
Verification and Validation of Agency Performance Information, GAO/GGD-99-139. Washington D.C.


                                            2

U. S. Department of Commerce                                                     Final Report No. FSD-15990-4-0001

Office of Inspector General                                                                            March 2004


legislation4 ; interviewed Census officials responsible for generating, maintaining, and
reporting performance data; identified and tested internal controls; subjected data to
validation and verification procedures; and evaluated the clarity and usefulness of
explanations provided for each measure in the FY 2002 PAR. We further tailored our
audit procedures to ensure adequate coverage of each measure under review, as presented
in table 1.

                  Table 1. Census Bureau Goals, Related Measures, and OIG Audit
                           Procedures
                         Goals                                       Measures/Audit Procedures

                                                     • Percentage of household surveys attaining specified reliability
         1. Provide and Improve Current                measurements. Reviewed eight surveys for FY 2001 and nine
         Measures of the U.S. Population,              surveys for 2002; interviewed officials in charge of conducting
         Economy, and Governments that Meet            them.
         the Needs of Policy Makers,
         Businesses, and the Public.
                                                     • Household response rate for Current Population Survey,
                                                       National Crime Victimization Survey, and American
                                                       Housing Survey. Response rate for the National Health
                                                       Interview Survey. Household Response Rate for the Survey of
                                                       Income and Program Participation. Compared actual response
                                                       rates with target results for FYs 2001 and 2002.
                                                     • Release data products from Survey of Income and Program
                                                       Participation (SIPP) and Survey of Program Dynamics
                                                       (SPD). Determined how Census included core data items, topical
                                                       modules, SIPP and SPD data products in reported results for FYs
                                                       1999 through 2002, and the rationale for inclusion or exclusion.
                                                     • Release principal economic indicators . Reviewed FY 2002
                                                       press releases announcing the 12 indicators and discussed the
                                                       releases with Census officials.

                                                     • Release Decennial Census, Census of Governments, and
         2. Provide the Statistical Foundation         Economic Census products. Reviewed production schedules to
         and Benchmark Measures of the                 ascertain the number of actual vs. scheduled releases during FY
         Population, Economy, and the                  2001 and FY 2002.
         Government that Meet the Needs of
         Policy Makers, Federal, State, and
         Local Government Agencies,
         Businesses, and the Public.

                                                     • Implement Master Address File (MAF) /Topologically
         3. Reengineer the 2010 Decennial              Integrated Geographic Encoding and Referencing (TIGER)
         Census to be More Efficient and Cost          Modernization. Reviewed MAF evaluation proposal, requested
         Effective, Provide Richer Data,               evidence of FY 2002 system completion, assessed modernization
         Improve Cove rage, and Reduce Risk            methodology presented in FY 2002 PAR, and interviewed
         in Meeting Constitutional and                 relevant Census officials.
         Legislative Mandates.
                                                     • Implement American Community Survey (ACS). Reviewed
                                                       FY 2001 schedule for data collection via mailout operations, and
                                                       FYs 2001/2002 production schedules for computer-assisted
                                                       telephone and personal interviewing operations.




4
 GPRA; the Chief Financial Officers Act; OMB Circular A-123, Management Accountability and Control;
OMB Circular A-11, Preparation and Submission of Strategic Plans, Annual Performance Plans, and
Annual Program Performance Reports, Part 6; and GAO Standards for Internal Control in the Federal
Government.



                                                 3
U. S. Department of Commerce                               Final Report No. FSD-15990-4-0001

Office of Inspector General                                                      March 2004


We did not test the reliability of computer-generated data for the measures, as such data
was not essential to our audit objectives.

We conducted our fieldwork from May to November 2003 at Census headquarters in
Suitland, Maryland. We performed this audit in accordance with Government Audit
Standards issued by the Comptroller General of the United States, and under the
authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.

                       FINDINGS AND RECOMMENDATIONS

Our audit revealed that the reporting of the bureau’s performance information can be
improved. Specifically, (1) imprecisely worded measures and related targets limit the
usefulness of reported information and (2) incorrectly worded descriptions of verification
procedures lessen the reliability of reported information; and (3) conflicting and
incomplete disclosures diminish the usefulness of reported results. We note that Census
management has already taken some corrective actions in response to our preliminary
audit findings.

Guidance on reporting performance information is contained in the following:

    •	 The Government Performance Results Act of 1993, Section 4, requires that each
       agency establish performance indicators to be used in measuring the relevant
       outputs, service levels, and outcomes of each program activity and describe the
       means to be used to verify and validate measured values.

    •	 OMB Circular A-123, Management Accountability and Control, identifies
       internal controls as the organization, policies, and procedures used by agencies to
       reasonably ensure that reliable and timely information is obtained, maintained,
       reported, and used for decision making.

    •	 OMB Circular A-11, Part 6, Preparation and Submission of Strategic Plans,
       Annual Performance Plans, and Annual Program Performance Reports requires
       an assessment of reliability and completeness of the performance data to be
       included in the report. The assessment describes any material inadequacies in the
       completeness and reliability of the data, and any actions the agency can take and
       is taking to resolve the inadequacy.




                                      4

U. S. Department of Commerce                                     Final Report No. FSD-15990-4-0001

Office of Inspector General                                                            March 2004


I.	 Imprecisely Worded Measures and Related Targets Limit the Usefulness of
    Reported Information

The wording of measures in some instances does not reflect the full range of activities
being assessed, and in others, does not accurately reflect what is being assessed. Also,
imprecisely worded performance targets set the stage for potential misinterpretations of
actual results. Consequently, the usefulness of reported performance information is
limited.

Goal 1 measures:
                                                                  Goal 1: Provide and Improve
   • Percentage of household surveys attaining                    Current Measures of the U.S.
       specified reliability measurements. The results            Population, Economy, and
                                                                  Governments that Meet the
       reported for this measure included two non-                Needs of Policy Makers,
       household demographic surveys (Teacher Follow-up           Businesses, and the Public
       Survey and School and Staffing Survey). Lumping
       these two together under a measure that refers to only household surveys skews
       the data and thus misinforms the reader. Census needs to either revise the title to
       reflect the inclusion of demographic surveys beyond those related to households
       or ensure that only household surveys are reported in the results.

Goal 2 measure:

                                  • Release Decennial Census, Census of Governments, and
Goal 2: Provide the Statistical
Foundation and Benchmark     Economic Census Products. The FY 2002 PAR states that
Measures of the Population,  Census met its target of releasing 100 percent of all scheduled
Economy, and Government
that Meet the Needs of Policyproducts in both FY 2001 and 2002, the implication being that
Makers, Federal, State, and  the number contained products for all three censuses. While
Local Governmental Agencies,
Businesses, and the Public   Census is correct in its statement that all scheduled releases were
                             completed, the only products scheduled for release during this
           performance period were decennial census products. In order to avoid confusion,
           Census should make clear which types of products were scheduled for release,
           and then note if those releases take place.

Goal 3 measures:
                                                                  Goal 3: Reengineer the 2010 Decennial
                                                                  Census to be More Efficient and Cost-
     •     Implement MAF/TIGER modernization.                     Effective, Provide Richer Data,
           Improving the master address file (MAF) and            Improve Coverage, and Reduce Risk in
                                                                  Meeting Constitutional and Legislative
           topologically integrated geographic encoding           Mandates
           and referencing (TIGER) system is crucial to
           the success of the 2010 decennial, and is a major activity for the bureau during
           these years of preparation. This measure is intended to gauge the progress of the
           modernization effort. The FY 2002 target against which the bureau reported this
           progress in the PAR was, “Prepare plan and systems by the end of FY 2002 to
           measure housing unit coverage of the address list; list is at least as complete as it
           was for Census 2000, as measured by the accuracy and coverage evaluation.”
           The bureau reported having met the target.



                                             5

U. S. Department of Commerce                                 Final Report No. FSD-15990-4-0001

Office of Inspector General                                                        March 2004


        As worded, the target implies that Census would have the plan and systems
        supporting housing unit coverage of the master address file in place by the end of
        FY 2002 and have the list itself updated to a level equal in scope of coverage and
        accuracy to that provided by the Census 2000 MAF. In fact, the bureau assessed
        and reported its progress toward developing the plan and identifying which
        systems are needed to support it. To correct this, Census informed us that they
        intended to add the following statement to the FY 2003 PAR:

            “Clarification of FY 2002 reported actual performance for Implement
            MAF/TIGER Modernization --Revised actual results should read:
            Prepared plan and identified systems to measure housing unit
            coverage. Though unintentional, the original wording incorrectly
            implied the completion of systems and finality of measurement results.
            This is an ongoing program that will yield an annual national estimate
            of MAF coverage, with the first estimate available in FY 2006.”

        However, the FY 2003 PAR did not contain such a statement. A Department
        official informed us that the change did not make it to the Department budget
        office in time to be reported in the FY 2003 PAR. Census informed us they plan
        to include the information in the FY 2004 PAR.

    •	 Implement the American Community Survey. The FY 2002 target for this
        measure was, “Complete field activities supporting the release of 2001 data from
        the long form transitional database in Summer of FY 2002.” Again, the bureau
        reported having met the target.

        We found that though the data was ready for release by the summer—the implied
        objective—Census delayed its release until November 2002. Officials informed
        us that the objective of this target was simply to report whether field activities had
        been completed by the summer, which they were. However, the wording of the
        target was open to more than one interpretation, which could lead to confusion on
        the part of the readers.

Recommendations

The Director of the U.S. Census Bureau should ensure that the following actions are
taken:

        (1) Measures and associated target performance levels are revised to accurately
            convey what activities the performance results are based on, and unclear or
            incorrect results are restated in future reports.

        (2) Appropriate disclosures are provided in the PAR to clarify and enhance
            explanations of actual performance results.




                                       6

U. S. Department of Commerce                                 Final Report No. FSD-15990-4-0001

Office of Inspector General                                                        March 2004


II. Incorrectly Worded Descriptions of Verification Procedures Lessen the
    Reliability of Reported Information

For certain performance measures, Census did not provide accurate descriptions of the
procedures it employs in the verification of performance results. The description of
procedures employed to ensure the reliability of performance information is important as
it indicates the amount of confidence that can be placed in the data.

Goal 2 measure:
  • Release Decennial Census, Census of Governments,
      and Economic Census Products. 	Census’s verification            Goal 2: Provide the Statistical
      methodology for this measure is inconsistent. The bureau        Foundation and Benchmark Measures
                                                                      of the Population, Economy, and
      reports that its procedure is to compare actual dates of data   Government that Meet the Needs of
      dissemination against projected dates. However, we found        Policy Makers, Federal, State, and
                                                                      Local Governmental Agencies,
      that this method applies to only two of the three products—     Businesses, and the Public
      Census of Governments and Economic Census. For the
      decennial census products, the bureau compares specific products to its projected
      schedule.

Goal 3 measure:
   •	 Implement the American Community Survey. Census                         Goal 3: Reengineer the 2010
       reports in the PAR that it verifies data for this measure by 	         Decennial Census to be More
                                                                              Efficient and Cost-Effective,
       comparing actual product release dates against those in its 	          Provide Richer Data, Improve
       completion schedule. Census officials told us that in reality          Coverage, and Reduce Risk in
                                                                              Meeting Constitutional and
       the bureau compares actual and projected dates for data                Legislative Mandates
       collection, not data release.

Recommendation

The Director of the U.S. Census Bureau should ensure that verification methods are
accurately described and provide a true test of data reliability.




                                       7

U. S. Department of Commerce                                   Final Report No. FSD-15990-4-0001

Office of Inspector General                                                          March 2004




III. 	Conflicting and Incomplete Disclosures for the Goal of Providing and
      Improving Current Measures of the U.S. Population, Economy, and
      Governments Diminish Usefulness of Results

The explanations provided for two of the four measures supporting this goal contained
inconsistent and noncomparable information, and omitted key details. As such, the
usefulness of the data in assessing Census’ performance is diminished.

      •	 Goal 1 Measure: Household response rate for the Current Population Survey,
           the National Crime Victimization Survey, and the American Housing
           Survey; response rate for the National Health Interview Survey; response
           rate for the Survey of Income and Program Participation (SIPP). The FY
           2002 PAR initially reports that “The Bureau met 100% of the stated target of
           obtaining response rates better than 90%.” Later in the text, the target is reported
           as a “90 percent or better response rate.” Under the first guideline, the bureau did
           not fully meet the measure, as the response rate for the American Housing Survey
           (AHS) was 90 percent in FY 2001. Under the second guideline—the correct
           one—AHS’ 90 percent response rate qualifies the bureau as having met the target.
           The reader, however, has no way of knowing which target is correct and whether
           one or both were met.

           Further skewing the presentation is Census’ improper inclusion of response rates
           for the American Community Survey (ACS) in the discussion of household
           response rates. It also inaccurately reported having met 100 percent of the target
           for all surveys in FY 2001 and FY 2002, when it did not meet that target for the
           FY 2001 SIPP 5 and the explanation of the measure does not provide an FY 2001
           or FY 2002 target for SIPP, while it does for all other surveys. This omission
           denies readers full and consistent information with which to assess the reported
           results. Census officials recognize the presentation contains conflicting
           information, and noted that the FY 2004 Annual Performance Plan will specify a
           target for each survey for FY 2003 and FY 2004. We recognize that Census has
           taken corrective action, and advise that in future performance reports the bureau
           disclose the discrepancy we identified, provide consistent information for SIPP,
           and note that the FY 2001 SIPP target was not fully met.

      •	   Goal 1 Measure: Release data products from SIPP and the Survey of
           Program Dynamics (SPD). The presentation of this measure suggests that
           reported data is comparable across the years, when in fact it is not. SIPP and SPD
           data was measured in FY 1999 but only SIPP core data was included in FYs 2000,
           2001 and 2002. Although Census reported this omission in the measure’s
           explanation, the FY 1999 through FY 2002 targets and actual performance
           presented in the report are based on two different data sources—the first year
           includes products from two surveys, the second, third, and fourth years contain
           products from only one.


5
    The SIPP response rate for FY 2001 was 86.7 percent.


                                             8

U. S. Department of Commerce                                 Final Report No. FSD-15990-4-0001

Office of Inspector General                                                        March 2004


        Despite these inconsistencies, the FY 2002 PAR asserts that, “the bureau was able
        to maintain the production time schedule as was achieved in FY 1999 for SIPP
        and SPD”—which clearly implies the data for all 4 years is comparable.

Recommendations

The Director of U.S. Census Bureau should ensure that the following actions are taken:

(1) Explanations and discussions of Census measures in the PAR provide appropriate
    information needed to fully understand the substance, context, scope, and meaning of
    reported results; and

(2) Unclear or inaccurate results are revised and restated in future reports.

The U.S. Census Bureau Response and OIG Comments

In response to our draft report, the Director of the U.S. Census Bureau expressed the
bureau’s general agreement with our recommendations. In addition, the Director noted
that many of the issues discussed in this report have been subsequently addressed in the
Department of Commerce’s FY 2003 Performance and Accountability Report (PAR). We
appreciate the U.S. Census Bureau’s prompt response to the draft audit report and its
continued efforts to improve the reporting of its performance results.




                                       9

